No._________

In The

Supreme Court of the United States
JOE EDWARD JOHNSON,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF CALIFORNIA
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
CAPITAL CASE

Petitioner Joe Edward Johnson, through his counsel, the State Public
Defender, asks leave to file the accompanying petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis. Petitioner has been
granted permission to so proceed on the appeal of his judgment of death to the
California Supreme Court. On December 1, 2005 that court appointed the State
Public Defender to represent petitioner in his automatic appeal.

1

A copy of the order of the California Supreme Court appointing the State
Public Defender to petitioner’s appeal is attached hereto.
Dated: July 10, 2020

Respectfully Submitted,
MARY K. MCCOMB
State Public Defender
/S/
ANDREW C. SHEAR
Supervising Deputy State Public Defender
Counsel of Record
Office of the State Public Defender
1111 Broadway, Suite 1000
Oakland, CA 94607
Andrew.Shear@ospd.ca.gov
510-267-3300
Counsel for Petitioner Joe Edward Johnson

2

